ES, IG-98-025, Earth Science Commercial Data Buy Program
EARTH SCIENCE COMMERCIAL
DATA BUY PROGRAM
IG-98-025
Executive Summary
Introduction
Congress and the Office of Management and Budget directed NASA to initiate a
commercial data buy program that would acquire Earth Science
(1)data products.
One of the program objectives is to use private sector remote sensing
capabilities to promote broad Earth Science research goals.
NASA's fiscal year 1997 appropriation contained $50 million to accomplish
the purchases.  During Phase I of the two-phased data buy program, the
Commercial Remote Sensing Program Office (CRSPO) awarded 10 contracts
totaling about $3.7 million.
Objectives
Our objectives (2)were to determine whether:
the acquisition of data from commercial sources has been properly
planned and managed:
competitive procurement procedures were used; and
the data obtained will help achieve Earth Science program goals.
Overall Results
Overall, the CRSPO properly planned and managed the commercial data buy
program.  However, we have concerns regarding 1 of the 10 contract awards.
Specifically, the CRSPO unnecessarily contracted with User Systems,
Incorporated (USI), and Space Imaging EOSAT (SIE) (3)for an online Spaceborne
Imaging Radar-C (SIR-C) archive.(4)  This contract duplicated NASA's capability
to access SIR-C data through two existing agreements.  As a result, the
CRSPO will unnecessarily spend $295,000 during Phase I of the commercial
data buy program.  Further, cost projections show that the CRSPO could spend
at least $576,000 during Phase II for data that are already available at no
additional cost to the Agency. Therefore, a total of $871,000 could be put
to better use.
We could not determine whether the Phase I data will help achieve Earth
Science program goals because the CRSPO has not yet accepted, validated, or
evaluated the data. The CRSPO expects to complete these processes by
September 30, 1998.  Science evaluators and intended users believe the data
may benefit the Earth Science Enterprise.  We will perform further audit
work to address this objective.
Recommendations
We recommended that the SIR-C archive portion of the Phase I data buy
contract with USI/SIE be terminated.  Additionally, we recommended that the
CRSPO should not award the SIR-C portion of the Phase II contract.
Management's Response
Management did not concur with the recommendation to terminate the Phase I
contract because all Phase I products had been delivered and accepted.
Termination of the Phase I contract would not have been cost advantageous to
the Government. As a result of our discussions with management officials, we
agree that contract termination would not be cost-effective.
Management agreed that the CRSPO should not award the Phase II contract.
The CRSPO will notify the contractor of NASA's intent not to pursue a
Phase II contract.  Management's planned actions are responsive to the
recommendation.
FOOTNOTES
1.  The Earth Science Enterprise was formerly the Mission to Planet Earth Enterprise.
2.  See Appendix A for a detailed description of our scope, methodology, and field work.
3.  USI and SIE entered into a joint venture whereby USI is the prime contractor in Phase I and SIE is the prime contractor in Phase II.
4.  The SIC-C imagery will be placed in SIE's interactive global data distribution system, making the data accessible to Earth scientists worldwide.